WAIVER
Supreme Court of the United States
No. 20-8301
Kimberly Steele, et al.
(Respondents)

v.

Daniel J. Heffley
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
o I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):
Arnold Caplan, Esquire

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
Si

I am not presently a member of the Bar of this Court. Should a response be requested, the

response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supremx Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature
Date:

J
June 29, 2021

(Type or print) Name

Kenneth N. Schott, Ill, Esquire

gl Mr.

0 Ms.

0 Mrs.

D MiSs

Firm Burns White LLC
Address Burns White Center, 48 26th Street
City & State

Phone

Pittsburgh, Pennsylvania

412-995-3282

Zip

15222

Emailknschott@burnswhite.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc: Petitioner Daniel J. Heffley, Pro Se
Counsel for Respondents (see attached Certificate of Service)

RECEIVED
JUL 1 - 71P1
OFFICE OF

SUPREME (7. •

CERTIFICATE OF SERVICE
The undersigned hereby certifies that true and correct copies of the within
WAIVER were served upon the following pro se parties and counsel of record this
29th day of June, 2021 via electronic mail and by United States, first class mail,
postage prepaid:
Petitioner Daniel J. Heffley, Pro Se
6911 Perrysville Avenue
Pittsburgh, PA 15202
danheffley a,verizon.net

Respondent Elisabeth Bennington,
Esquire, Pro Se Attorney
BENNINGTON LAW FIRM, LLC
5854 Ellsworth Avenue
Pittsburgh, PA 15232
ebennin.gton@benningtol law.corn

Shane Haselbarth, Esquire
MARSHALL DENNEHEY WARNER
COLEMAN & GOGGIN
2000 Market Street, Suite 2300
Philadelphia, PA 19103
sshaselbarth@mdwcg.corn
Counsel for Respondents Deborah
Witchel, Katherine Gibson, Neil
Rosenblum, Ph. D. and William
Clifford, Esquire

David L. Haber, Esquire
Amy J. Coco, Esquire
WEINHEIMER HABER & COCO
429 Fourth Avenue, Suite 602
Pittsburgh, PA 15219
dlh@whc-pc.corn
ajc@Avhc-pc.com
Counsel for Respondent Elisabeth
Molnar, Esquire

Jessica G. Lucas, Esquire
S. Manoj Jegasothy, Esquire
GORDON REES SCULLY
MANSUKHANI
707 Grant Street, Suite 3800
Pittsburgh, PA 15219
ilucas(&grsm.com
mjegasothy@grsm.corn.
Counsel for Respondent Stephanie
Muick, Esquire

BURNS WHITE LLC

K nneth N. Schott, III, Esquire
Pa. I.D. No.: 320716
Burns White Center
48 26th Street
Pittsburgh, PA 15222
knschott@burnswhite.corn
Phone: 412-995-3000
Fax: 412-995-3300
Counsel for Respondent, Arnold Caplan,
Esquire

2

